No. 19-371
INTHE

$')Upreme (!Court of tbe <ltlntteb $')tates
STEPHENS. WISE TEMPLE,

Petitioner,
v.
JULIE

Su, as Labor Commissioner, etc.,

Respondent.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 21st day of October, 2019, I caused three copies of the Brief ofAmicus Curiae
Union of Orthodox Jewish Congregations of America in Support of Petitioner to be
served by third-party commercial carrier on the counsel identified below, and caused an
electronic version to be transmitted to the counsel identified below, pursuant to Rule
29.5 of the Rules of this Court. All parties required to be served have been served.

Paul D. Clement
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioner

David Maxim Balter

CALIFORNIA DIVISION OF LABOR
STANDARDS ENFORCEMENT

455 Golden Gate Ave, 9th Floor
San Francisco, CA 94102
(415) 703-4863
dbalter@dir.ca.gov
Counsel for Respondent
)

